 

IN THE

SUPREME COURT OF THE UNITED STATES

 

ABDUL MAJID,
Petitioner

Vv.

UNITED STATES OF AMERICA,
Respondent.

 

CERTIFICATE OF SERVICE

I, Jamie J. Resch, do swear or declare that on this 13th day of January,
2021, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by delivering
to the postal service, first class postage prepaid, a package properly addressed
to each of them and containing the above documents.

The names and addresses of those served are as follows:

Solicitor General of the United States Kate Berry

Room 5616, U.S. Dept. of Justice Federal Public Defender
950 Pennsylvania Avenue, NW 201 W. Liberty St. #102
Washington, DC 20530-0001 Reno, NV 89501

(202) 514-2217 (775) 321-8451

Counsel for United States of America Counsel for Haseeb Malik

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 5, 2021.

 
